No. _____________

In the

Supreme Court of United States
________

Tobias O. Reed,
Petitioner
v.

Commonwealth of Virginia,
Respondent

PETITION FOR WRIT OF CERTIORARI
Supreme Court of Virginia Record No. 200074
Court of Appeals of Virginia No. 1305-15-4

Marvin D. Miller, Esq.
The Law Offices of Marvin D. Miller
Virginia State Bar #1101
1203 Duke Street
Alexandria, VA 22314
Phone: (703) 548-5000
Facsimile: (703) 739-0179
Email: ofc@mdmillerlaw.com
Counsel of Record for Petitioner

-i-

QUESTIONS PRESENTED
Today, prosecuting attorneys all too frequently are part of and lead the
investigating team. They are not brought a case investigated and prepared by law
enforcement to evaluate for prosecution.
In this case, a prosecutor’s ex parte motion resulted in an order leading to
electronically tracking Reed historically and in real time, 24 hours a day, 7 days a
week, for months, using CSLI and GPS.. After Reed’s case was vacated and remanded
by this Court because of Carpenter v. United States, 585 U.S. ___ 16402, 138 S. Ct.
2206 (2019), the prosecution raised good faith as a defense to their unconstitutional
action. Virginia’s courts treated the prosecution as if dealing with a police officer
acting in the moment on the street.

I.

Are prosecuting attorneys who engage with a court in the course of

conducting a criminal investigation, such as obtaining an ex parte order, entitled to the
same good faith exemption from the exclusionary rule that this Court allowed for a
police officer acting in the moment in Illinois v. Krull, 480 U.S. 340 (1987), under the
same standard and analysis as police, or are lawyers different, requiring a different
standard and analysis?

II.

When a prosecutor who has used an unconstitutional method to obtain

evidence in a criminal investigation raises the affirmative defense of good faith, like
that raised by the police officer in Illinois v. Krull, supra, to exempt their action from

-ii-

the exclusionary rule, should the court deciding their claim have a factual record about
what the prosecution knew or was chargeable with knowing and what they did or did
not do for its decision?

PARTIES TO THE PROCEEDINGS
All parties to these proceedings are noted in the caption of the case. Neither
party is a corporation.
Neither the United States nor any federal department, office, agency, officer, or
employee is a party.

-iii-

TABLE OF CONTENTS

Questions Presented. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Parties to the Proceedings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Table of Contents. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
Table of Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
Introduction.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Opinion Below. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Constitutional Provision Involved. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Statement of the Case.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Reasons for Granting the Writ. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Argument.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
I.

The Good Faith Analysis in Krull was About a Police
Officer, Not a Lawyer. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

II.

Lawyers Are Not the Same As the Police Officer On
The Beat. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

III.

A Factual Record In the Context of a Good Faith
Analysis Is As Important As It Is In Other Contexts. . . . . . . . . . . . . 27

Conclusion. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

Appendix A
Supreme Court of the United States remand to Virginia Supreme Court
Reed v. Commonwealth, Record No. 17-5402
(28 June 2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . app-1

-iv-

Appendix B
Virginia Court of Appeals Opinion
Reed v. Commonwealth, 71 Va.App. 164 (2019)
(12 November 2020). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . app-
Appendix C
Virginia Supreme Court Order denying Petition for Appeal
Reed v. Commonwealth, Record No. 200074
(21 May 2020). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . app-

-v-

TABLE OF AUTHORITIES
Case

Page(s)

Arizona v. Evans,
514 U.S. 1 (1995). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Blackledge v. Perry,
417 U.S. 21 (1974). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Boyd v. United States,
116 U.S. 616 (1986). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Carpenter v. United States,
585 U.S. ___16402; 138 S.Ct. 2206 (2018).. . . . . . . . . . . . . . . . . . . . . . . passim
Carpenter v. United States,
No. 16-402 (June 5, 2017). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Davis v. United States,
564 U.S. 229 (2011). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Illinois v. Krull,
480 U.S. 340 (1987). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
In Re Application,
620 F.3d.309 (3rd Cir. 2010). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Johnson v. United States,
333 U.S. 10 (1948). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Katz v. United States,
384 U.S. 347 (1952). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24, 25
Kyllo v. United States,
533 U.S. 27 (2001). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24, 26
Reed v. Commonwealth,
16 VapUNP 1305154 (2010).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 7
Reed v. Commonwealth,
71 Va. App. 164 (2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10

-vi-

Case

Page(s)

Reed v. Commonwealth,
69 Va. App. 332 (2018).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9, 10, 11
Rice v. Rivera,
617 F. 3d. 802 (4th Cir. 2010). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Smith v. Maryland,
442 U.S. 735 (1979). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
United States v. Agurs,
427 US 97, 111 (1976). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
United States v. Chambers,
751 Fed.Appx. 44 (2nd Cir. 2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
United States v. Chavez,
894 F.3d. 593 (4th Cir. 2018).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 9, 10
United States v. Goldstein,
914 F.3d 200 (3rd Cir. 2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
United States v. Jones,
565 U.S. 400 (2014). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
United States v. Leon,
486 U.S. 897 (1984). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
United States v. Miller,
425 U.S. 435 (1976). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
United States v. Smith,
55 F. 3d. 158, 159 (4th Cir. 1995). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Weeks v. United States,
232 U.S. 383 (1914). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

-vii-

Statute

Page(s)

18 U.S.C.§2703. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. §1257. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Va. Code §19.2-70.3.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4, 5, 12, 21
Va. Code §19.2-159. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Other Sources

Page(s)

American Bar Association’s Model Rules of Professional
Conduct.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Virginia Rules of Professional Conduct. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
American Bar Association’s Standard of Criminal Justice
for Prosecutorial Investigations .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19, 20
Divide & Concur: Separate Opinions and Legal Change,
Cornell Law Review, Volume 103, 4 May 2018. . . . . . . . . . . . . . . . . . . . . . 25
Robert H. Jackson, the Federal Prosecutor,
31 J.Crim.L.&Criminology Volume 3, 3 (1940). . . . . . . . . . . . . . . . . . . . . . 17
Adam Liptak, Justices Say GPS Tracker Violated Privacy Rights,
New York Times, 23 January 2012. .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Robert Barnes, Supreme Court Limits Police Use of GPS Tracking,
The Washington Post, 23 January 2012. .. . . . . . . . . . . . . . . . . . . . . . . . . 21

INTRODUCTION
Petitioner, Tobias O. Reed, who has requested to be allowed to proceed in forma
pauperis, respectfully requests that a writ of certiorari issue to review the judgment
and opinion of the Virginia Supreme Court, dated 21 May 2020.

OPINION BELOW
This Court’s remand of this case to Virginia’s Supreme Court on 28 June 2018
in Reed v. Commonwealth, Record No. 17-5402 is attached as Appendix A. The opinion
of the Virginia Court of Appeals, issued on 12 November 2020 in Reed v.
Commonwealth, 71 Va.App. 164 (2019), is attached as Appendix B. The Virginia
Supreme Court's order in Reed v. Commonwealth, Record No. 200074, denying his
petition for appeal on 21 May 2020, is attached as Appendix C.

JURISDICTION
The jurisdiction of this Court is invoked pursuant to 28 U.S.C. §1257(a). The
decision of the Virginia Court of Appeals was issued on 12 November 2019. The
Virginia Supreme Court order denying Petitioner's timely petition for review of the
Court of Appeals decision was issued on 21 May 2020. This petition is filed within 90
days of the Virginia Supreme Court's denial, on 21 May 2020, of discretionary review
of Mr. Reed's case pursuant to Rules 13.1 and 29.2 of this Court.

-2-

CONSTITUTIONAL PROVISION INVOLVED
The Fourth Amendment to the U.S. Constitution provides: The right of the
people to be secure in their persons, houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation, and particularly describing the place
to be searched, and the persons or things to be seized.

STATEMENT OF THE CASE
The origins of this case go back to 18 July 2012, when an undercover police
officer arranged a small drug buy from one Fernando Payne in Alexandria, Virginia.
They were to meet to obtain the drugs from Alan Farmer, the main target of the
investigation. The undercover officer's truck broke down so they could not meet
Farmer. Payne made a call and left his cell phone with the officer, telling him, "If
Tobias calls, he is my man. Pick up and tell him I'm coming". Payne walked to a
nearby parking lot where an officer, scrunched down and hiding in the back of an SUV,
claimed to see him entering a vehicle allegedly driven by Reed and parked on the far
side of a van. Payne returned to the undercover officer and sold him 1.9 grams of
cocaine powder. No arrests were made that day.
Weeks later, on 3 August 2012, an Alexandria prosecuting attorney presented
a motion, ex parte, asking for a court order under the Stored Communications Act
directing an out of state cell phone carrier, Verizon, to produce a massive amount of

-3-

cell phone records concerning a cell phone number alleged to belong to Reed.1 The
information sought included Cell Site Location Information (CSLI) tracking, 24/7 for
a five (5) month historical period, and real time GPS tracking going forward.2 The
Alexandria Circuit Court granted the motion. In its order, prepared by the prosecutor,
the court found that the prosecutor had established "reasonable grounds" to believe the
records sought were relevant and material to an ongoing criminal investigation.
On 17 August 2012, Reed was taken into federal custody and incarcerated in the
Alexandria City Jail because of a federal supervised release violation. While he was
in the local Alexandria jail, the Alexandria officers obtained an arrest warrant from a
magistrate at the jail for the drug sale of 18 July 2012. They knew Reed was there at
that time, but chose not to serve the warrant on him. The prosecution decided to
withhold service of the warrant until Reed completed his two year sentence for his
federal supervised release violation.

The warrant’s command that it be served

“forthwith” was deliberately ignored.
When Reed was released from his federal sentence at FCI Butner in North
Carolina in June 2014, the Alexandria police, who knew where he was after he had
been transferred out of the Alexandria jail, were waiting. They snatched him up,
bundled him into their Alexandria Police vehicle, and hauled him back to Alexandria,
where they served the August 2012 warrant and put him in jail. They had no lawful

1

Virginia’s Stored Communications Act - Va. Code §19.2-70.3 is the state’s
equivalent of 18 U.S.C.§2703.
2

CSLI is cell site location information that allows 24/7 tracking back in time for
past movement and locations, while GPS, global positioning sytems, allow such tracking in
real time.

-4-

process or legal authority in North Carolina; they are the police, so they just kidnaped
him and drove back to Alexandria.
Reed had not been given the statutorily required and court ordered notice of the
court order regarding the CSLI and GPS 24/7 tracking using his cell phone, and only
discovered it, by chance, when litigating a motion to quash a prosecution subpoena in
2015 in his Alexandria case.3 The prosecutor had kept the order secret until it was
inadvertently revealed in the subpoena litigation. Once he learned about the August
2012 ex parte order, Reed moved to suppress the evidence produced pursuant to that
unconstitutional and unlawful order including both the 24/7 historic tracking using
CSLI and real time GPS surveillance and any evidence obtained as a result. Reed’s
motion argued, inter alia, that a search warrant was required under the Fourth
Amendment to obtain the cell phone records, and that an ex parte order under the
Stored Communications Act (S.C.A.), Va. Code §19.2-70.3, was constitutionally
insufficient. That motion was only heard on legal arguments. Good faith was not
raised by the Commonwealth as a defense to Reed’s claim that the order was
unconstitutional. No facts about what the prosecutor did or did not do in regard to his
motion and the order, or what he knew or was chargeable with knowing, were
presented or addressed at that hearing.

3

He did not have the opportunity, as this Court suggested in Illinois v. Krull,
supra, at 354 to litigate a civil suit to enjoin use of the Stored Communication’s Act against
him while in FCI Butner because the prosecutor did not let him know about the tracking
order despite a court order specifically directing the prosecutor to provide him with the
statutorily required notice.

-5-

At the time of the ex parte order, in August 2012, and the suppression hearing
in 2015, there had been no decision by the Fourth Circuit Court of Appeals nor by any
Virginia appellate court allowing 24/7 tracking of an individual by use of a cell phone’s
CSLI and GPS capabilities under either Virginia’s or the federal government’s Stored
Communications Act (S.C.A.). The most recent and most relevant decision on 24/7
electronic tracking was the unanimous decision and five Justices’ concurrence in
United States v. Jones, 565 U.S. 400 (2014), which found that 24/7 GPS tracking was
within the protections of the Fourth Amendment. The motion to suppress was denied
based on Virginia’s version of the S.C.A. - Va. Code §19.2-70.3.
Reed’s case was tried without a jury. The CSLI records obtained from Verizon
by the unconstitutional use of the Stored Communications Act were introduced as part
of the prosecution’s case in chief to help prove the claim that Reed’s cell phone was
nearby and, thus, he was involved in the 1.9 gram sale of 18 July 2012. Reed was
convicted.
Mr. Reed had a prior record, and was sentenced to ten (10) years in prison for
that one time sale of 1.9 grams of powder cocaine. Due to his indigence, undersigned
counsel was appointed for his appeal by the trial court at his sentencing on 28 May
2015 pursuant to Va. Code §19.2-159. A notice of appeal was timely filed. His petition
for appeal was granted by the Court of Appeals of Virginia. In that appeal, among

the issues he raised was that a search warrant was required to obtain several
months worth of historical (CSLI) and real time (GPS) surveillance. In its

-6-

opinion the Virginia Court of Appeals held that “any remedy appellant may
have had as a result of such error was corrected by the fact that only historical
cell phone records (CSLI) from the relevant time and date of the drug buy were
admitted at trial”. Reed v. Commonwealth, 16 VapUNP 1305154 (2016), slip op.
at 13. In other words, since only a little bit of what was claimed to have been
obtained in violation of the Fourth Amendment was actually used at trial, the
court did not need to address the Fourth Amendment issue. The Supreme Court
of Virginia sustained the Court of Appeals decision by denying Reed’s timely petition
for appeal. Reed v. Commonwealth, No. 161401 (Va. Apr. 26, 2017).
While Reed was preparing his petition for certiorari for this Court, certiorari was
granted in Carpenter v. United States, No. 16-402, on 5 June 2017. The question was
whether the warrantless seizure and search of a cell phone user’s historical CSLI
tracking records, revealing his location and movements 24 hours a day for 7 days a
week over the course of a little more than four (4) months, was permitted under the
Fourth Amendment pursuant to a Stored Communications Act order or whether a
warrant supported by probable cause was required. That same issue was presented
in Reed’s petition to this Court and his case was held in abeyance pending a decision
in Carpenter. When Carpenter was decided, Reed’s petition was granted. The Supreme
Court of Virginia decision was vacated and the case was remanded for further
proceedings consistent with the decision in Carpenter v. United States, 138 S.Ct.2206
(2018), by this Court in its order of 28 June 2018. (Pet. App.1.)

-7-

The Supreme Court of Virginia, having only ratified the Court of Appeals of
Virginia decision by denying review, remanded the case to that court. That court
ordered simultaneous briefings. Reed’s brief addressed the holding in Carpenter that
24/7 surveillance using CSLI required a search warrant. The Commonwealth’s brief
raised the claim, for the first time, that good faith exempted application of the
exclusionary rule because the S.C.A. provision at issue had not been held to be
unconstitutional at the time of the August 2012 motion for a court order for 24/7
tracking using the CSLI and GPS capabilities of Reed’s cell phone.
Reed moved to strike that newly raised good faith argument after filing his
simultaneous brief on what the holding in Carpenter meant for his case. The Virginia
Court of Appeals, in a footnote to its decision sustaining the Commonwealth’s claim of
good faith, denied Reed’s motion. Reed v. Commonwealth, 69 Va. App. 332, 338 n.3
(2018). That decision adopted the analytical framework of United States v. Chavez, 894
F.3d. 593 (4th Cir. 2018) that investigators who act in reasonable reliance on statutes
not then invalidated are entitled to a good faith exemption from the exclusionary rule.
Chavez, however, did not deny that the investigators in his case had acted in good
faith, and the opinion focused only on investigators, not prosecutors, because the issue
of a prosecutor’s actions requiring different treatment than that of a police officer had
not been raised. Id. at 608. See, Reed v. Commmonwealth, 69 Va. App. at 338, 339.
Reed did not agree that there was good faith and focused on the prosecutor, not the
police.

-8-

Reed petitioned for an appeal to the Supreme Court of Virginia which remanded
the case to the Court of Appeals by an Order entered on 3 July 2019. After that
remand, Reed filed his brief in the Court of Appeals on the Commonwealth’s
affirmative defense of good faith. Among his arguments was that the prosecuting
attorney acted in disregard of this Court’s decision in United States v. Jones, supra.
It should have been brought to the attention of the court when the ex parte motion
under the S.C.A. was presented for decision.4 Reed also contended that this issue was
a mixed question of law and fact. His case involved the actions of a prosecuting
attorney’s motion, not the police. Prosecutors are not the same as police.
The Virginia Court of Appeals on a cold record, on an issue never decided or even
addressed in the trial court, allowed the prosecution’s good faith argument and ruled
that the prosecutor who presented the ex parte S.C.A. motion was entitled to the
same good faith exemption in Reed’s case as was allowed for the police officer in Illinois
v. Krull, 480 U.S. 340 (1987). Reed v. Commonwealth, 71 Va.App. 164, 176 (2019).
There was no analysis of the difference between a police officer acting in the moment
and a lawyer presenting a motion to the court. According to the Virginia Court of
Appeals decision, if a statute had not been declared to be unconstitutional at the time

4

Jones, supra, was a significant, unanimous decision addressing the use of modern
electronic tracking 24/7. It was the first time this Court ruled on that kind of extensive,
extended surveillance, though not the first time the Fourth Amendment’s protections were
applied to new technology. The opinion rested on a trespass violation, but five Justices, in
two concurrences, made it clear that electronically tracking someone 24/7 is such an
invasion of privacy that it comes within the protections of the Fourth Amendment. Id. at
415, 418, 431.

-9-

the prosecutor used it, that was all that was needed for good faith to apply to his
conduct. Commonwealth v. Reed, 71 Va. App. at 173-176. There was no need for any
facts about what the prosecutor knew, is charged with knowing, or did or did not do.
That opinion principally relied on federal circuit courts of appeal cases where the
good faith conduct of police officers, not prosecuting attorneys, was at issue and, in
those cases, their good faith had not been called into question. See, United States v.
Chavez, supra, and United States v. Chambers, 751 Fed. Appx.44 (2nd Cir 2018), cited
in Reed v. Commonwealth, 71 Va. App. at 175, 176. The lack of any dispute on the
good faith of the officers in those cases is in contrast to Reed who did call the good faith
claim by the prosecutor in his case into question.
The unpublished decision from the Second Circuit, United States v. Chambers,
supra, was, like Reed’s case, on remand from this Court because of the decision in
Carpenter v. United States, supra. United States v. Chambers, supra, at 45, cited in
Reed v. Commonwealth, 71 Va. App. at 176. In the Chambers decision, the Second
Circuit addressed the impact of exclusion of evidence on “... an officer who has simply
fulfilled his responsibility to enforce the statute as written”. 741 Fed. App. at 47, citing
to Illinois v. Krull, supra, at 350(emphasis added). Chambers, supra, like Chavez,
supra, did not address the issue that prosecuting attorneys, because of their knowledge
of the law and obligations as attorneys, should not have their claims of good faith
assessed using the same analysis applied to the officer in Krull. That lawyers are not
the same as police in what they know about the law and what they are obligated to do

-10-

when making a presentation to a court was not before the court in either Chambers or
Chavez court and was not analyzed.
That Virginia Court of appeals decision also relied on United States v. Goldstein,
914 F.3d 200 (3rd Cir. 2019). See, Reed v. Commonwealth, supra, at 176. That federal
case did hold that prosecutors are to be treated the same as police officers when
conducting a good faith analysis, but conducted no analysis of the difference between
police officers and lawyers. Goldstein, supra, at 205, 206.5 In Goldstein, there had
been no basis or support offered by the appellant for the distinction he claimed between
lawyers and law enforcement officers in the context of a good faith analysis. United
States v. Goldstein, supra. Id. at 206. No case was cited by the Court of Appeals of
Virginia that conducted, nor did that court itself conduct, any analysis of the difference
between police and lawyers. That difference exists and cannot be ignored in the
context of a good faith analysis of whether they are exempt from the exclusionary rule
because a statute they used was not yet declared invalid when used.
Because Mr. Goldstein offered no support for his claim that prosecuting
attorneys are not the same as police officers when it comes to using statutes not yet
expressly declared invalid, the court in Goldstein did not consider or address the fact

5

Another reason Goldstein did not prevail was that, prior to Mr. Goldstein’s
original case, the Third Circuit had held that it was lawful to obtain the kind of cell phone
data at issue in his case under the S.C.A. Id. at 202, 203, citing In Re Application, 620
F.3d.309 (3rd Cir. 2010). Under this Court’s decision in Davis v. United States, 564 U.S.
229 (2011), prior binding precedent of an appeals court such as the Third Circuit’s decision
of In Re Application controlled. Goldstein, supra, at 205. An Eleventh Circuit case on
which Mr. Goldstein relied was of no moment because of the binding precedent of In Re
Application. Ibid.

-11-

that attorneys, unlike police, have a duty of continuing their legal education as a
requirement to be licensed and attend continuing legal education seminars to keep up
with developments and changes in the law.

Most are required by their Bar

Associations to take a certain number of mandatory continuing legal education (MCLE)
credit hours each year.6

In Virginia, for example, the license requirement is a

mandatory 12 hours per year. Prosecutors’ knowledge of the law and their obligations
as lawyers are not the same as those of a police officer. Neither the decision in
Goldstein nor by the Virginia Court of Appeals in this case addressed that significant
difference between police and lawyers in the context of a good faith claim of exemption
from the exclusionary rule. Respectfully, this Court should. It is important to give
guidance to the lower courts on how they should address the issue as the role of
prosecuting attorneys continues to more frequently include the role of investigator.
Reed did not prevail in his argument that the prosecuting attorney in his case
knew and was chargeable with knowing that a mere court order under the S.C.A. for
24/7 tracking of Reed violated the Fourth Amendment because of the landmark
decision in United States v. Jones, supra, (decided on 28 January 2012; about half a
year before the prosecutor presented his S.C.A. motion in this case).
The appellate court in Virginia, through its own research, crafted an analysis
to hold that the decisions in Jones did not prevent it from finding, on a cold record, that

6

All of the states require continuing legal education credits to maintain a law
license, except Massachusetts, Maryland, Minnesota, and South Dakota. See, American
Bar Association at www.americanbar.org/events-cle/mcle/.

-12-

this prosecutor had acted in good faith. Reed v. Commonwealth, supra, at 176. They
decided they did not need to know what he knew or whether he complied with the
statute.7
Essentially, the Virginia Court of Appeals decided that, if a statute has not
specifically been held to be unconstitutional there is an irrebuttable presumption of
good faith for anyone who uses it. That decision found, without a factual record, that
the police (not the prosecutor) had “...complied with the provision of the S.C.A. and Va.
Code §19.2-70.3(B). Reed v. Commonwealth, supra, at 174. As for the prosecutor’s
actions, the opinion did not agree that prosecuting attorneys are any different from
police in the context of good faith and adopted the decision in Goldstein, supra. Reed
at 176.
After Reed was unsuccessful in the Virginia Court of Appeals, he petitioned for
appeal to the Supreme Court of Virginia which refused to hear his case by a final order
of 21 May 2020. Pet. App. C.
This Petition seeks to have this Court address whether the good faith exemption
applied in Krull to a police officer applies just the same to prosecuting attorneys using
the same standard and analysis as was used for police officers acting in the street.

7

This is in sharp contrast to Illinois v. Krull, supra, where the Illinois Court of
Appeals remanded the case to the trial court for a fully developed factual record because
“recent developments in the law” made it apparent to that appellate court that good faith
would be an issue. Illinois v. Krull, supra, at 344. To decide a claim of good faith requires
a factual record so that appellate court ordered that one be developed. It was, and, in
Krull, this Court relied on it. Id. at 342-344.

-13-

Should there be, as there was in Krull, a factual record about what the person who
acted (a prosecutor here) did or did not do in compliance with the statute at issue and
knew or was chargeable with knowing when deciding a claim of good faith which is
contested and those facts have never been presented to nor addressed in the trial court.

REASONS FOR GRANTING THE WRIT
This case presents a significant matter of constitutional importance. Does this
Court’s exemption to the exclusionary rule for a police officer, shown to be acting in the
moment and in good faith reliance on as well as in full compliance with a statute not
yet specifically declared unconstitutional also apply equally and using exactly the same
analysis and standard to a prosecuting attorney preparing and presenting a motion in
an ex parte hearing in a trial court or are prosecuting attorneys different?
When prosecutors claim they are entitled to an exemption from the exclusionary
rule because they acted in good faith, are they to be assessed differently than police
officers because, as lawyers, their knowledge, chargeable knowledge, and obligations
are not the same as a police officer? Should there be a factual record about what a
prosecutor did or did not do and what he or she knew or is chargeable with knowing
when deciding whether to allow a claim of good faith?

-14-

ARGUMENT
Lawyers, including their knowledge of the law, are not the same as police
officers acting in the moment in the street. This Court’s holding in Krull cannot be
applied the same to lawyers preparing and presenting a motion to a trial court as it
was to a police officer acting in the moment in the street.

I.

The Good Faith Analysis in Krull Was About a Police Officer, Not a Lawyer.
In Illinois v. Krull, supra, a state trial court in Cook County suppressed evidence

obtained during an administrative search by the police because the day after the
search a federal court had ruled that the administrative search statute was
unconstitutional. Id. at 344. When the case was appealed to the Appellate Court of
Illinois, it vacated the trial court’s ruling and sent the case back to that court for
further proceedings about what the officer did because it had determined that, due to
recent developments in the law, good faith reliance on the state statute might be
relevant in assessing the admissibility of the evidence. It was the trial court which
should make a factual determination regarding exactly what had happened and what
the officer did or did not do and knew or did not know in the context of good faith before
the matter was considered on appeal.8 Ibid. Ultimately the Illinois Supreme Court

8

If the police department’s lawyers had, for example, issued a directive to the
department, after a review of the then pending federal case, that the administrative search
statute was no longer to be used because it had constitutional defects, or if that officer had
not followed the statute’s requirements or procedures, that set of facts could disallow good
faith. Similarly, in Arizona v. Evans, 514 U.S. 1(1995) it was also necessary to develop the
facts about the police claim of good faith in order to make an accurate decision. An arrest

-15-

concluded that the statute violated the Fourth Amendment and sustained the
suppression of the evidence. This Court granted certiorari to consider the application
of the good faith exception to the Fourth Amendment exclusionary rule for police
officers acting in reliance on a statute declared unconstitutional after the officers had
acted in reliance on it. Id. at 346.
In its analysis, this Court focused on its prior decision in United States v. Leon,
486 US 897 (1984). The Court observed that the exclusionary rule is `to deter police
misconduct rather than punish the errors of judges and magistrates because the
judicial branch is not an”...adjunct[s] to the law enforcement team ...”; rather, judges
are “... neutral judicial officers, they have no stake in the outcome of particular
criminal prosecutions.” Illinois v. Krull, supra. at 348, citing to Leon, supra at 917.
The Court also observed that legislators,”...like judicial officers, are not the focus of the
rule...” Krull, supra, at 350. The legislative branch, like the judiciary, is not a branch
which is an “...adjunct[s] to the law enforcement team.” Id. at 350, 351. Legislators,
this Court noted, enact laws to establish and perpetuate the legal system. Ibid. They
are different from police who are engaged in the “...hurried judgment of a law
enforcement officer ‘engaged in the often competitive enterprise of ferreting out crime.’”
Ibid. Citing to Johnson v. United States, 333 US 10, 14 (1948). Legislators, unlike

on a withdrawn warrant was allowed in that case because the evidence at a hearing on the
matter established that a departmental error did not show the warrant had been
withdrawn in the computer system used by the arresting officer. Hearings in the trial
court about what happened were necessary since there were no irrebuttable presumptions
in those cases.

-16-

police, enact statutes for “broad, programmatic purposes, not for the purpose of
procuring evidence in particular criminal investigations.” Id. at 353. In other words,
the exclusionary rule is not applicable to the legislative branch nor to the judicial
branch of government because they are not focused on nor invested in a particular
outcome in a prosecution as are police and the prosecutors who make up the
investigative and prosecution team.
The exclusionary rule does apply to those who are engaged in investigating and
bringing criminal cases, i.e. the executive branch. While the rule is most often applied
to the police, prosecutors, who, these days, are more than a mere adjunct to the police
and often play a larger role in the collection of evidence and the overall investigation
than they did in the past, are and ought to be within the purview of the Rule.
Prosecuting attorneys are not neutral arbiters; they are advocates and, when they are
part of the law enforcement investigation they are not entitled to be exempt from the
exclusionary rule. When they claim good faith they are not to be treated the same as
would be a police officer. Their profession makes them different but does not give them
a free pass when, as here, they claim the good faith exemption for themselves. As
Supreme Court Justice Robert Jackson said when he was the United States Attorney
General, in a speech which he gave in 1941, prosecutors wield a great deal of power
and we must be mindful of their actions. He was aware of and candidly warned of the
dangers of abuse by a prosecutor who has broad and often unscrutinized use of power,
and said that, “The prosecutor has more control over life, liberty, and reputation than
any other person in America. His discretion is tremendous. ...While the prosecutor is

-17-

at his best one of the beneficient forces in our society, when he acts from malice or
other base motives he is one of the worst.” Robert H. Jackson, the Federal Prosecutor,
31 J.Crim.L.&Criminology Volume 3, 3 (1940).
Prosecutors are more than an “adjunct to the law enforcement team”. They can
be and often are, as recent history shows, the team leader. They are not neutral and
detached members of the judiciary who have no stake in the outcome of a given case
nor are they legislators who are enacting laws for policy and programmatic purposes.
They are advocates and, when involved in an investigation, they are a major part of the
investigative team and, like police, they become vested in the investigation and its
outcome. Their knowledge of the law and their duty to know the law and where it is
and its status at the time they use it and their obligation of candor to the tribunal,
however, make them different than police officers. Police, unlike lawyers, “...cannot
be expected to question the judgment of the legislature that passed the law...”. Id. at
350. They are expected to “...simply fulfill his [their] responsibility to enforce the
statute as written.” Ibid. Lawyers are different. Prosecutors are different still. As
this Court said in United States v. Agurs, 427 US 97, 111 (1976), holding prosecutors
to a higher standard is necessary, lest the “special significance to the prosecutor’s
obligation to serve the cause of justice” be lost.
Prosecuting lawyers who appear before a court in an ex parte hearing have a
different body of knowledge about the law and a different duty toward the court than
is expected of a police officer acting in the moment on the street. More is expected of
lawyers and rightfully so. They are not exempt and ought not to be from scrutiny.

-18-

That is part of our system of checks and balances. The judiciary has a duty to act as
a check on the executive branch. Whether they acted in good faith is a matter for the
judiciary to decide but it cannot be assessed the same as the actions and knowledge of
a police officer.

Their difference must be acknowledged and addressed when

prosecuting attorneys, as here, claim they acted in good faith. If, as in Krull, the
knowledge or chargeable knowledge of a police officer is relevant to good faith, then the
same, at the very least, applies to a lawyer. See Krull, supra, at 1348. It cannot be
decided without knowing what the prosecution actually did or did not do and what the
prosecutor knew or was chargeable with knowing. This is a subject which needs
guidance from this Court, especially as prosecutors have become more involved in
investigations.

II.

Lawyers Are Not the Same As the Police Officer On The Beat.
Virginia’s appellate courts applied the good faith holding in Krull to a

prosecuting attorney the same as if he were a police officer without giving any
consideration to the differences between the two.9 They held that the good faith

9

The Virginia Court of Appeals misapplied Krull even if lawyers could be assessed
the same as policemen. In Krull, the Illinois Court of Appeals remanded the case to the
trial court to determine what the officer did and what he knew or should have known.
Krull at 344. This Court, in its decision, recognized that what the officer did and his
knowledge or chargeable knowledge is a factor to be considered in assessing the police
officer’s good faith. Id. at 348. The same assessment should be made for lawyers claiming
a good faith exemption, although their knowledge and chargeable knowledge is different.
What they did or did not do and what they knew or are chargeable with knowing is
important for the decision. A decision cannot be properly made on a cold record devoid of
those facts.

-19-

exemption available to a police officer acting in the moment in the street applies
equally to a prosecuting attorney when preparing and presenting a motion to a trial
court in an ex parte motions hearing. Reed v. Commonwealth, supra, at 176. They
cited no case which had analyzed the difference between lawyers and police officers
that is to be taken into account when considering a prosecutor’s claim that they acted
in good faith. They did cite to United States v. Goldstein, supra, but that case
conducted no analysis of and did not address the difference between police officers and
lawyers. That question, not addressed in Illinois v. Krull, is especially important now
given the current frequency of prosecutors involvement in investigations prior to the
bringing of charges or any arrest. Prosecutors have become so often actively involved
in investigations that the American Bar Association, in 2013, published a volume
entitled Prosecutorial Investigations as part of its Standards for Criminal Justice.
Because of their role as investigators, this specialized Standard was needed to provide
guidance to prosecutors who, as in this case, are actively engaged in criminal
investigations.
Prosecutors, as attorneys, are duty bound to keep updated on the law. A
lawyer’s knowledge of the law is not the same as that of a police officer acting in the
moment in the street. Police officers are not attorneys with years of legal education
and do not have the duty, the same as a lawyer, to know and be aware of changes in
the law. Their training period at the police academy is not the same as nor intended
to be the same as a three year law school education. They do not have mandatory
attendance for several hours per year at continuing legal education seminars (MCLEs)

-20-

as do most lawyers.10 They are not required to know and keep abreast of changes in
the law as is expected of a practicing attorney.
Lawyers also have an obligation of candor toward the tribunal which generally
requires providing counterveiling authority to the court. See, eg., Rule 3:3 of the
American Bar Association’s Model Rules of Professional Conduct. This obligation of
informing a court of opposing authority is, of course, more pronounced in an ex parte
proceeding than in an adversarial one where opposing counsel is participating. Courts,
informed of counterveiling authority in an ex parte proceeding, are better able to reach
a fair result. In Virginia, an attorney certifies, when he or she signs a motion in a civil
case, that they have conducted a reasonable inquiry into the matter and that, to the
best of their knowledge, information, and belief their position is well founded. Va.
Code §8.01 - 271.1. This obligation is a corollary to Rule 3:3 of the American Bar
Association’s (ABA) Model Rules of Professional Conduct regarding candor to the
tribunal and is also consistent with Comment 4 to Rule 3.3 of the Virginia Rules of
Professional Conduct which applies to all lawyers, including prosecutors, and notes
that lawyers are to present “pertinent” law to the tribunal and are expected to
recognize the existence of pertinent legal authorities. In that context, the ABA’s
Standard of Criminal Justice for Prosecutorial Investigations 26-2.10(c) and (d)
regarding Technical Surveillance should also be noted.

In the Commentary to

Subdivision (c) the ABA cautions prosecutors to give consideration to the legal and

10

See MCLE requirement from all but four of the 50 States in FN 5 on page 12.

-21-

privacy considerations of the subject. The Commentary to (d) focuses on the legal
requirements of surveillance and has the admonition that prosecutors should routinely
review changing legal requirements in the area of technological surveillance because
the law in that field changes and the change can be significant. United States v. Jones,
supra, is a prime example of significant change.
Had the prosecutor in this case made the required reasonable inquiry, and had
he kept abreast of the law and changes in the law, then he would have known, and
because of that obligation, was chargeable with knowing, that the 24/7 CSLI and GPS
surveillance of Reed his motion requested for five or more months required more than
a mere finding of reason to believe there was relevance and materiality to an
investigation under the S.C.A., Va. Code §19.2-70.3. This Court’s unanimous decision
in Jones handed down over six months before his motion was a landmark.

It

addressed, for the first time, the extensive and extended invasion of privacy allowed
by remote electronic tracking of someone everywhere they go, 24 hours a day, 7 days
a week, for months on end. Former United States Solicitor General Walter Dellinger,
a lawyer for Mr. Jones, was quoted as saying, when the decision was handed down,
that “Law enforcement is now on notice that almost any GPS electronic surveillance
of a citizen’s movements will be legally questionable unless a warrant is obtained.”
Adam Liptak, Justices Say GPS Tracker Violated Privacy Rights, New York Times, 23
January 2012. See also, Robert Barnes, Supreme Court Limits Police Use of GPS
Tracking, The Washington Post, 23 January 2012. The Jones decision was a major
change. It did not go unnoticed in the news media nor in legal circles. Lawyers

-22-

engaged in criminal law would be hard pressed to claim ignorance of Jones, what it
held, and what it meant.
In this case the prosecutor presented his ex parte motion to the court asking for
an order under the S.C.A. to obtain five months of 24/7 electronic tracking using Reed’s
cell phone capabilities and told the court that it could be based on mere reason to
believe it was relevant and material to an investigation. The prosecutor knew or
should have known, at that time, August 2012, that a search warrant, supported by
probable cause, was required for such an extensive invasion of privacy. The 28
January 2012 landmark decision by this Court in Jones was clear. That decision
constituted “pertinent law” and “pertinent legal authority” at the very least.
A majority of five Justices in United States v. Jones, 565 U.S. 400 (2012) left no
doubt that extended 24/7 electronic surveillance comes within the protection of the
Fourth Amendment. Their concurrent opinions were not a vacuous undertaking.
Justice Sotomayor’s statement of agreement with Justice Alito’s concurrence that “...
longer term GPS monitoring in investigations of most offenses impinges on
expectations of privacy” was significant. Jones, supra at 415. Justice Alito, after
acknowledging the massive invasion of privacy available through such devices as the
ubiquitous modern cell phone, concluded that lengthy GPS monitoring, as occurred in
Jones - and as was sought and granted six months later by the S.C.A. order in Reed,
“... constituted a search under the Fourth Amendment.” Id. at 431. Justices Ginsburg,
Breyer, and Kagan joined Justice Alito’s concurrence. Id. at 418. There could be no
doubt from the concurring opinions of five Justices in Jones that 24/7 electronic

-23-

tracking, via a modern cell phone’s capabilities, of a person everywhere they go for
months was a Fourth Amendment search. In fact, when determining that the 24/7
tracking in Jones implicated Fourth Amendment areas of every day life that people
reasonably expected to be private, it was also recognized that, in this digital age,
people reveal so much of themselves in mundane tasks using cell phones, that Smith
v. Maryland, 442 U.S. 735 (1979) and United States v. Miller, 425 U.S. 435 (1976), are
ill suited to the digital age and would likely need to be revisited.

See, Justice

Sotomayor’s concurrence in Jones at 417. Ultimately, it was decided in Carpenter,
supra, that, in this digital age, Smith and Miller did not actually involve the voluntary
surrender to a third party of the expansive information revealed in cell phone use
today which allows 24/7 tracking using a cell phone’s CSLI and GPS. See, Carpenter
v. United States, supra, slip op. at 10, 11. A decision of the magnitude of Jones does not
go unnoticed by lawyers in the field of criminal law - including prosecuting attorneys.
That warrantless Fourth Amendment searches, not based on such wellrecognized and limited exceptions as, by way of example only, consent or an immediate
exigency, which are surreptitious, pervasive, and long term were held not to be
permissible on a finding of mere relevance and materiality to a criminal investigation
is consistent with the long term, historic application of the Fourth Amendment. That
an invasive intrusion by 24/7 electronic surveillance into the whole of one’s private life
is a Fourth Amendment matter, as found by five Justices in Jones, is consistent with
the long history of the Fourth Amendment’s protection of the right of the people to
privacy from unreasonable invasion by the government. Indeed, when the Amendment

-24-

was adopted, its inspiration included General Warrants and the invasive Writs of
Assistance of King George authorizing wholesale searches in the colonies without any
specificity. See, Boyd v. United States, 116 U.S. 616, 622-623 (1986). As technology
has advanced, so too has the application of the Fourth Amendment’s protections. See
e.g. Kyllo v. United States, 533 U.S. 27 (2001) prohibiting the use of thermal imaging
technology to search a home from the outside.
The right of privacy protected by the Fourth Amendment has a long and
venerated history in our Constitution. As this Court said in Weeks v. United States,
232 U.S. 383 (1914):
“the Fourth Amendment ... put the courts of the United States and
federal officials, in the exercise of their power and authority, under
limitations and restraints [and] ... and the duty of giving to it force and
effect is obligatory upon all entrusted under our Federal system with the
enforcement of the laws.” Id. at 391-392.
In Weeks, the Court went on to note that :
“The efforts of the courts and their officials to bring the guilty to
punishment, praiseworthy as they are, are not to be aided by the sacrifice
of those great principles established by years of endeavor and suffering
which have resulted in their embodiment in the fundamental law of the
land.” Id. at 393.
At the time of the prosecutor’s ex parte motion in Reed’s case a majority of this
Court had already declared that people have a reasonable expectation of privacy in the
whole of their movements. Jones, supra, at 430, 431. Justice Scalia’s opinion also
reflected acknowledgment that electronic surveillance implicated the Fourth
Amendment. He wrote that “situations involving merely the transmission of electronic
signals without trespass would remain subject to Katz analysis”. (Referring to the

-25-

holding in Katz v. United States, 384 U.S. 347, 351 (1952) that the Fourth Amendment
protects people, not places.) United States v. Jones, supra, at 413.
The tracking allowed in this case allowed electronic GPS surveillance 24/7 for
months, not just four weeks, as occurred in Jones, supra. The prosecutor won his ex
parte motion for 24/7 CSLI and GPS tracking of Reed using modern cell phone
capabilities for months. The prosecutor’s actual knowledge and his expected or
chargeable knowledge of the decision in Jones regarding the application of the Fourth
Amendment for four weeks of 24/7 electronic signal tracking, when he sought an even
more invasive several months of surveillance 24/7 by a mere court finding of relevance
and materiality under the Stored Communications Act, affects his right to claim good
faith reliance on that Act. He is not a police officer. He is a lawyer. The cold record
on which the Court of Appeals of Virginia relied does not show what he did or what he
knew. He could not have escaped notice of the decision in Jones. He is, presumably,
knowledgeable of pertinent authority such as that.
Four Justices in a unanimous decision joining in one concurrence, acknowledged
as valid by another Justice in a separate concurrence is not all that common. A
concurrence by a Justice who voted with the majority was termed a pivotal concurrence
in the article, Divide & Concur: Separate Opinions and Legal Change, Cornell Law
Review, Volume 103, 4 May 2018. In a statistical analysis of concurrences in this
Court from 1946 through 2012, the authors determined that pivotal concurrences are
cited (relied on) by lower courts nearly as often as plurality concurrences in
constitutionally significant cases. Id. at 872. This five Justice majority in Jones on the

-26-

Application of the Fourth Amendment to a protected area of privacy was significant,
it was a matter not to be ignored by lawyers who practice in the field of criminal law prosecutors and defense lawyers alike. It was another case like Kyllo v. United States,
supra, where advances in technology were not allowed to diminish reasonable
expectations of privacy from government intrusion. Those who practice in the area of
criminal law know and are expected to know that the Fourth Amendment’s protection
of the right of privacy is not and cannot be static as technology advances. That
knowledge does and should inform their positions in their cases. In an ex parte
proceeding, especially, they cannot feign ignorance of cases like Jones. Lawyers should
not automatically be given a good faith pass on a motion relying on an unconstitutional
statutory provision when they knew or should have known of the unconstitutional
nature of their request. They also should be required to have faithfully complied with
the statutory requirements and related court orders when claiming they are entitled
to a good faith exemption from the exclusionary role. The Third Circuit in Goldstein,
supra, applied Krull to a prosecutor without giving any reasoning concerning the
difference between police and lawyers. The Virginia Court in Reed’s case did the same.
Prosecutors just are not the same as a police officer when it comes to whether they are
entitled to a good faith exemption to the exclusionary rule. This Court would serve the
criminal law system well by taking this case and giving guidance to lower courts on
how they should address claims of good faith raised by prosecutors to defend their use
of unconstitutional means to obtain evidence.

-27-

III.

A Factual Record In the Context of a Good Faith Analysis Is As Important As
It Is In Other Contexts.
In this Court’s decision in Illinois v. Krull, supra, this Court paid attention to

the facts the court of appeals had directed the trial court to develop what the officer
actually did and what he knew. Krull, supra, at 344. What a prosecuting attorney has
done is no less important in this context. What was known and what is the chargeable
knowledge as well as what was or was not actually done ought to be know when
making the important decision of whether the exclusionary rule applies to
unconstitutional action by a prosecutor.
Prosecutors, in other contexts involving the constitutionality of their conduct,
have the facts of what they did known before a decision is made. In Batson v.
Kentucky, 476 U.S. 79 (1986) the use of peremptory strikes in jury selection to deny a
black defendant the right to have members of his race on his jury was plainly
renounced and prohibited. When a prosecutor strikes a black juror using a peremptory
strike, the defense can challenge it. Before the court makes its decision on the
challenged strike, it needs to know the facts about what the prosecutor knew and did.
Was the strike race based or was it made in good faith based on the prospective juror’s
relationship to the accused or another valid reason? Facts first, decision after.
When a case is to be retried, after a successful appeal or habeas corpus petition,
and additional new changes with more severe penalties are brought, are they brought
in good faith based on newly available information or are they vindictive? Under
Blackledge v. Perry, 417 U.S. 21 (1974), that question, good faith and proper or not,

-28-

based on what the prosecutors knew and did, must be answered before deciding a
motion to dismiss for vindictive prosecution.
Another context in which the facts of a prosecutor’s actions need to be
determined when assessing whether a prosecutor acted in good faith is a motion under
Rule 48(a) of the Federal Rules of Criminal Procedure. That rule permits a prosecutor
to move to dismiss an indictment or information. It may be granted only with leave
of court. When deciding such a motion, the court decides whether granting it “...would
be clearly contrary to manifest public interest...” Rice v. Rivera, 617 F. 3d. 802, 811 (4th
Cir. 2010). Making that decision “... should be decided by determining whether the
prosecutor acted in good faith at the time he moved for dismissal.” United States v.
Smith, 55 F. 3d. 158, 159 (4th Cir. 1995). If the prosecutor’s action is based on “...
acceptance of a bribe, personal dislike of the victim, and dissatisfaction with the jury
impaneled,” then that would establish bad faith and the motion could be denied. Ibid.
The prosecutor’s actions and knowledge must be known so good faith can be assessed.
In the decision making process regarding a prosecutor’s actions, it is important
to know what actually was or was not done and what was known or should have been
known when the action was taken. Guidance from this Court on this important
principle in the context of this case would advance the perception and reality of justice
in our criminal law system.

-29-

CONCLUSION
This Court is respectfully requested to grant this Petition for Certiorari.
Respectfully Submitted,
TOBIAS REED
By Counsel

I'd£~
Marvin D. Miller
19 August 2020
MARVIN D. MILLER
Counsel of Record for Petitioner
The Law Offices ofMa1·vin D. Miller
1203 Duke Street
Alexandria VA 22314
703 548 5000

ofc@mdmillerlaw .com

